"Review of the Administrative Cost Component of the Adjusted Community Rate Proposal for a New York Medicare+Choice Organization,"(A-02-00-01034)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Administrative Cost Component of the Adjusted Community Rate Proposal for a New York Medicare+Choice
Organization," (A-02-00-01034)
June 12, 2001
Complete
Text of Report is available in PDF format (816 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to examine the administrative cost component of the ACR proposals submitted to HCFA
by a New York Medicare+Choice organization (M+CO) and to assess whether the costs were appropriate when compared to the
Medicare program's general reasonable cost principles.  Unlike other entities in the Medicare program, an M+CO is
not presently subject to statutes or regulations which would limit its administrative costs.  The review identified
$96,994 (Medicare share) of administrative costs that would not be appropriate if the Medicare program's general reasonable
cost principles were applied to M+COs.  These costs included:  (1) entertainment, meals, and employee moral expenses;
(2) charitable contributions and sponsorships; (3) lobbying costs; (4) unsupported costs; (5) marketing and enrollment
expenses; and (6) other costs.